<html>
<title> - VENEZUELA'S TRAGIC MELTDOWN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      VENEZUELA'S TRAGIC MELTDOWN

=======================================================================
                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-13

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
24-831 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MO BROOKS, Alabama                   NORMA J. TORRES, California
RON DeSANTIS, Florida                ADRIANO ESPAILLAT, New York
TED S. YOHO, Florida                 GREGORY W. MEEKS, New York
FRANCIS ROONEY, Florida
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Steve Hanke, co-director, Institute for Applied Economics, 
  Global Health, and the Study of Business Enterprise, The Johns 
  Hopkins University.............................................     6
Mr. Russell M. Dallen, Jr., president and editor-in-chief, Latin 
  American Herald Tribune........................................    18
Hector Schamis, Ph.D., adjunct professor, Walsh School of Foreign 
  Service, Georgetown University.................................    29
Michael McCarthy, Ph.D., research fellow, Center for Latin 
  American and Latino Studies, American University...............    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Steve Hanke: Prepared statement..............................     8
Mr. Russell M. Dallen, Jr.: Prepared statement...................    20
Hector Schamis, Ph.D.: Prepared statement........................    31
Michael McCarthy, Ph.D.: Prepared statement......................    43

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
                      VENEZUELA'S TRAGIC MELTDOWN

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2172, Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. Before I recognize myself for an opening 
statement, I would like to show a few clips of the situation in 
Venezuela. And I think it is going to be on the screen, if you 
watch.
    [Video shown.]
    Mr. Duncan. I think that is a good preface for the hearing 
today.
    Before I recognize myself for an opening statement, we will 
welcome to the committee Congresswoman Mia Love from Utah to 
participate today. Without objection, so ordered.
    I now recognize myself for an opening statement.
    We are at a critical point in Venezuela's history. Severe 
widespread shortages in food, electricity, medicine, and the 
basic goods within what was once the richest country in Latin 
America have led to starvation, the highest infant mortality 
rate in the world, and horrific conditions in the hospitals.
    Today, Venezuela is on the edge of a complete meltdown. The 
country has the highest inflation rate in the world, with a 
falling GDP, its oil company PDVSA, is not generating enough 
revenue, and the Venezuelan currency is worthless. Gross 
economic mismanagement, widespread corruption throughout the 
government, and an erosion of democracy, rule of law, and human 
rights in the country have led Venezuela to its sad state 
today. Americans should take note, Venezuela is a case study 
for the failures of socialism.
    This is the third hearing that this subcommittee has held 
on Venezuela since I became the chairman in January 2015, and 
we remain deeply concerned for the welfare of the Venezuelan 
people and potential regional implications from Venezuela's 
instability.
    Venezuela has the largest oil and second-largest gold 
reserves in the world. But, incredibly, under President 
Maduro's tenure--and dating back to President Chavez's tenure--
the country has become practically a failed state.
    Last year, the economy shrank by almost 17 percent. This 
year, the International Monetary Fund estimates that inflation 
will increase to over 1,600 percent. The poverty rate is the 
highest in four decades and the homicide rate is at a 35-year 
high. Such indicators provide little hope for a recovery absent 
significant changes in the country's policies.
    Those who can afford to leave are fleeing the country in 
droves. Thousands have gone to Chile, Colombia, and Brazil, 
seeking food and medicine. And here at home, Venezuelans make 
up the largest percentage of asylum requests to the United 
States, with those numbers growing by 150 percent since 2015, 
according to the United States Department of Homeland Security.
    If the crisis in Venezuela continues, we could all have a 
situation on our hands where we are faced with massive refugee 
flows and public health threats from rising numbers of malaria 
and diphtheria cases in Venezuela, and those do not respect 
borders.
    In addition, Venezuela's PDVSA continues to creep along, 
but corruption and low oil prices have led to slower output. 
This situation has the potential to greatly impact gas prices 
here at home, as the United States is the third-largest 
importer of Venezuelan oil.
    The recent news that PDVSA received a $1.5 billion loan in 
exchange for giving Russia's state-owned oil company Rosneft 
49.1 percent of its shares in CITGO is problematic for U.S. 
interests. Should Venezuela default on its debt obligation to 
Rosneft, the Russians would become the second-largest foreign 
owner of U.S. refining capacity and thereby take control of a 
critical U.S. energy infrastructure, including three U.S. 
refineries and a network of pipelines. This is an untenable 
situation and undermines U.S. energy security interests.
    Furthermore, Venezuela's Petrocaribe program no longer 
provides energy with the same preferential financing terms as 
it did before. Its beneficiaries in the Caribbean and Central 
America should continue to seek alternatives for their own 
energy security, including from the United States' own 
abundance of oil and natural gas.
    Moreover, the political landscape in Venezuela looks bleak 
as well. While the people turned out in droves last year and 
spoke loudly at the ballot box in December 2015, giving the 
opposition a two-thirds supermajority in the legislature, the 
Maduro government refuses to listen to its citizens. Instead, 
Maduro has used the Supreme Court and Electoral Commission to 
nullify all legislative action, and he has thrown over 100 
political prisoners in jail.
    Maduro refuses to submit to the people's accountability. He 
has stolen their right of free expression, nullified their 
vote, and continues trampling on the Constitution and the rule 
of law.
    This month, OAS Secretary General Almagro provided evidence 
of the further deterioration of the state of affairs in 
Venezuela and has issued yet another call for the Venezuelan 
Government to hold free and open general elections.
    On March 23, 14 countries in the Americas released a joint 
declaration supporting Almagro's efforts, calling for Venezuela 
to hold elections, affirm democratic institutions, and free all 
political prisoners. The U.S. supported that effort. And while 
it called for dialogue, it also left open the possibility for 
further action, including suspension of Venezuela from the OAS 
if change does not occur.
    While I am hopeful that this declaration will result in a 
change in Maduro's behavior, the past dialogue efforts have all 
failed to do just that. The OAS member states need to think 
very carefully about how long to give the Venezuelan Government 
to comply, as this declaration reminds me of a very similar 
situation last year in the OAS. It also begs the question for 
the Trump administration: How is U.S. policy toward Venezuela 
today any different than it was a year ago?
    Last December, MERCOSUR suspended Venezuela for failing to 
meet membership requirements. It is my view that the OAS should 
take the same approach if Maduro does not immediately call for 
elections and change his behavior toward his own citizens.
    As an aside, it has come to my attention that the Dominican 
Republic, El Salvador, and Haiti are not supporting the OAS 
General Secretary's efforts to promote democracy in Venezuela. 
If this is the case, I think it would be difficult for the 
United States Congress to justify continued U.S. financial 
assistance to these countries, and I respectfully urge them to 
reconsider and support democracy in Venezuela.
    In conclusion, the United States is watching the situation 
in Venezuela closely. Last year, I, along with Ranking Member 
Sires and nearly 30 Members of Congress, urged the Obama 
administration to advocate for the release of Francisco Marquez 
and Joshua Holt from prison there in Venezuela. Today, 
Francisco is free, and he is sitting with us today in the 
audience.
    Francisco, I applaud your courage in the face of extreme 
brutality. Would you stand and be recognized?
    [Applause.]
    Mr. Duncan. He was supposed to be here in the audience. 
Hopefully, he will make it.
    I want to urge President Trump to prioritize the release of 
Joshua Holt and continue U.S. vigilance in countering the 
Venezuelan Government's activities in drug trafficking, 
organized crime, and assistance to Islamist militants. This 
hearing could not be timelier, in view of today's OAS Permanent 
Council meeting, and I look forward to what our witnesses will 
share with us.
    With that, I will turn to the ranking member, Albio Sires, 
for his opening statement.
    Mr. Sires. Thank you, Chairman, for holding this timely 
hearing, and thank you to our witnesses for being here today.
    With every month that passes, we see the situation in 
Venezuela becoming more and more dire. Reports of families 
searching dumpsters for food and sick children unable to access 
lifesaving insulin or chemotherapy are, unfortunately, becoming 
the norm. Maduro continues to keep political prisoners, like 
Leopoldo Lopez, under lock and key to send a strong message to 
those trying to question his actions.
    Venezuela, a country with the world's largest known oil 
reserves, is spiraling into a collapsed state where the people 
are struggling just to survive. Make no mistake, it is the 
failed Chavismo policies and the authoritarian actions of 
Nicolas Maduro that have brought all this pain and suffering 
upon Venezuela's people. Maduro and his cronies continue to get 
richer as they traffic money and drugs, while doing nothing to 
help billions of suffering people.
    Instead of focusing on the economy, Maduro is staging mock 
military exercises and stoking fears by spreading propaganda of 
a U.S.-led invasion. Press reports show that of the 800,000 
businesses that operated under Chavez, nearly 600,000 have shut 
down.
    Maduro's tactics are making it next to impossible to 
survive. With the recent sanctions of Vice President Tareck El 
Aissami under the Kingpin Act, it has become clear that 
Venezuela's Government is acting as a narco-state and 
facilitating the shipment of narcotics throughout the region.
    The truth about Maduro is clear, and the international 
community is starting to unify against him. The OAS Secretary 
General Luis Almagro has wisely called for Venezuela's 
suspension from the OAS unless he frees political prisoners, 
accepts humanitarian aid, and holds elections without delay.
    While a political solution is the only way to provide 
sustainable change for Venezuela, for the Venezuelan people, 
the dialogues up until now have done nothing but help provide 
Maduro a lifeline while his regime is teetering on the edge of 
collapse. I believe that we need to work together with our 
allies around the world and continue to insist Maduro abide by 
the international norms and give the Venezuela people the 
freedom they deserve.
    I am eager to hear how our panelists view the decaying 
situation in Venezuela and look forward to their 
recommendations as we continue to grapple with this complex 
issue.
    Thank you.
    Mr. Duncan. Since this topic is so important to me as 
chairman, I am going to give the other members a chance for a 
brief opening statement.
    I recognize Mr. DeSantis for a brief statement.
    Mr. DeSantis. Mr. Chairman, thanks for your leadership on 
this.
    We have been following now for years the crackdown on 
political dissent, imprisonment of people like Leopoldo Lopez, 
but this socialist state just keeps getting worse and worse. 
They are short on food, in fact, they had the government 
inspecting the bakeries to make sure that the flour was not 
being misused, because they wouldn't want someone to make 
brownies if they are short of bread. They are short on medical 
supplies. And even in the country that has some of the most 
proven and largest oil reserves in the world, they are running 
out of gasoline.
    This is an epic failure, and it is really a testament to 
the failure of socialism, the failure of central planning, and 
the failure of having a repressive police state.
    So, Mr. Chairman, thanks for doing this. We have got to 
keep on this and do all we can to help the people of Venezuela, 
because they are suffering at the hands of a really failed 
system.
    Mr. Duncan. I am going to come that way in just a second.
    Mrs. Love, do you have a statement?
    Mrs. Love. I do. Thank you so much for allowing me to come 
and give a statement and ask questions during this hearing.
    This is an issue that is personal to me, and I would like 
to just for the record--I will enter this into the record 
also--read a letter that we have written to the President of 
the United States:

          I write to direct your attention to the now months-
        long imprisonment of Mr. Joshua Anthony Holt, a 
        resident of Riverton, Utah, who has been held without 
        trial in a Venezuelan jail since June 2016, and request 
        that you take action and demand Mr. Holt's immediate 
        release.
          Joshua was arrested on fabricated charges of 
        possession of weapons of war on June 30, 2016. He has 
        not been granted a chance to defend himself or to share 
        his story in a court of law, despite being imprisoned 
        for months.
          My staff and I have remained in contact with a State 
        Department official since his imprisonment, receiving 
        periodic updates regarding Mr. Holt's condition and 
        treatment while he is imprisoned. We understand that 
        Mr. Holt has lost roughly 50 pounds and has been forced 
        to disrobe in front of guards and deliberately been 
        humiliated. Moreover, he has been denied fair hearing, 
        as his judge has either failed to appear or postponed 
        his hearing dates numerous times.
          His treatment, condition, and time imprisoned have 
        taken a significant toll on his family and the 
        community, and I am growing increasingly concerned that 
        Venezuelan officials plan to detain Mr. Holt 
        indefinitely while continuing to deprive him of his due 
        process.

    I find it very difficult to believe that a country that has 
landed a man on the moon, a country that is the leader in this 
world cannot protect its own citizen from this wrongful 
imprisonment. And so what I am asking the committee and what I 
am asking the President is the same question I have had to ask 
myself: Are we doing for Joshua and other wrongly, innocent 
imprisoned Americans what we would do or what we would expect 
our representatives to do for our children?
    Thank you.
    Mr. Duncan. Thank you.
    Mr. Espaillat, as much time as you need.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Sires. Thank you for having this timely briefing on Venezuela.
    Just as we speak here today, there are ongoing discussions 
in the Organization of American States regarding the plight of 
the Venezuelan people and the plight of the nation. I think it 
is important for us to hear directly from experts on the 
current political, economic, and humanitarian situation in 
Venezuela.
    Venezuela has been a country that traditionally was known 
for having access to great revenue and where there was 
opportunity for an emerging middle class. However, we have seen 
that the current government has its economic challenges. In 
fact, according to the International Monetary Fund, the rapidly 
declining price of oil has hit Venezuela very hard.
    Under the Petrocaribe program, 10 members of the Caribbean 
Community, along with the Dominican Republic, Nicaragua, and El 
Salvador, had the ability to purchase oil from Venezuela. These 
challenges for these countries have disappeared. They are now 
unable to get access in many cases of this cheaper price of 
oil.
    We would like to hear what the status of that program is, 
and also the challenges of the availability of food and the 
human rights situation in Venezuela. These are all critical 
issues that we must address, and I look forward to hearing from 
the experts.
    Mr. Duncan. I thank the gentleman.
    We are now going to go to our witnesses. And I just want 
you to notice the lights in front of you. It is a lighting 
system. You have 5 minutes to testify. It will start turning 
yellow as it is getting closer in the last minute, and then 
red. If you see the red, just start to wrap up.
    And so we will go ahead and recognize our first witness. 
The bios and information on the witnesses have been provided to 
the committee, so I am not going to go into that.
    Mr. Hanke, you are recognized for 5 minutes.

   STATEMENT OF MR. STEVE HANKE, CO-DIRECTOR, INSTITUTE FOR 
  APPLIED ECONOMICS, GLOBAL HEALTH, AND THE STUDY OF BUSINESS 
            ENTERPRISE, THE JOHNS HOPKINS UNIVERSITY

    Mr. Hanke. Thank you, Mr. Chairman.
    Mr. Duncan. Pull that microphone over. Everything is being 
recorded, and we want to hear what you have to say.
    Mr. Hanke. We are set now.
    Thank you for inviting me, both you and your colleagues. I 
will have six general points that I would like to raise with 
regard to Venezuela. And before I do that, I might add that I 
was President Caldera's chief adviser in 1995 and 1996, so I 
have watched the situation as it has deteriorated and then 
essentially melted down, as the committee has recognized 
already.
    The first point I would like to raise is that when you 
think about Venezuela, you have to think former Soviet Union in 
the late 1980s. You have to put the thing into context.
    My second point is, well, what does this actually mean? 
Some of you have already alluded to this, but the legacy that 
we face there is one of socialism, incompetence, corruption, 
massive oil reserves that are poorly exploited, all these 
things are very common with the former Soviet Union, and the 
list could go on and on.
    The third point I would like to make is that there is one 
precondition that must be met before all these things can be 
so-called fixed, because the list of things that are wrong is 
enormous and the number of reforms that will have to be made 
will be absolutely huge. And the precondition is that inflation 
has to be stopped. We recognize this. And I was an adviser to 
the governments in the Baltics, and also in the Balkans, and 
also in Latin America. And in all these cases where you have 
these meltdown situations, you must fix the inflation problem 
and establish stability before you can do anything. As I like 
to say, stability might not be everything, but everything is 
nothing without stability.
    So how do you fix the inflation? It is actually quite easy 
to do. There are two possibilities that are proven to work. The 
first possibility is to introduce something called a currency 
board system. I was involved in doing this in Estonia, 
Lithuania, Bulgaria, and Bosnia, and it stopped the inflation 
and stabilized things immediately.
    A currency board simply allows a country to issue their own 
currency, but it becomes a clone of the anchor currency. In the 
case of Venezuela, it would be the U.S. dollar, because it 
trades at a fixed exchange rate to the dollar. Under a currency 
board system, it is fully convertible and it is backed with 100 
percent U.S. dollar reserves. So in that case the bolivar would 
be equal to the dollar. If you didn't like the bolivar, you 
would just exchange it for greenbacks and 100 percent reserves 
would cover that and you would be fixed.
    The next point, the fifth point, is the second option, and 
that is to dollarize the country and just get rid of the local 
currency and adopt the U.S. dollar. I was involved in Ecuador 
when Ecuador did this in 2001, and, of course, it stabilized 
the situation in Ecuador immediately. And in Ecuador, even 
though the ideological frame is the same as the one in 
Venezuela, the performance in Ecuador is pretty good, actually. 
I have got data in my testimony before you. You can look at and 
review that.
    Now, the bottom line is, well, what should the U.S. 
actually do in terms of policy? And the first thing is that I 
would strongly advise no meddling, no direct meddling, forget 
the regime change kind of rhetoric that is so common in certain 
circles in Washington.
    So the question is, well, do we have any policy? Should we 
have a do-nothing policy? And the answer is no. There are many 
things that we can do. We have obligations with the OAS, with 
the U.N. We have already mentioned the OAS. Things are going on 
today. And the U.S. can take and use those vehicles to make 
their points.
    The second thing is something more direct that, in fact, 
hits inflation. And that is one thing that could be done is 
what Senator Dole did with Senator Steve Symms and Senator Phil 
Gramm, where they put an amendment in the foreign ops bill in 
1992 that allows U.S. quota contributions to the IMF to be used 
to help establish currency boards.
    As far as dollarization goes, I would just remind you that 
Senator Connie Mack, when he was chairman of the Joint Economic 
Committee, was tirelessly working on promoting dollarization. 
And this helped, by the way, in the introduction of the dollar 
in Ecuador and then a year later in El Salvador.
    The last thing--I am running over, but let me just mention 
the reality of either a currency board system or dollarization. 
We just did a survey in Venezuela 2 weeks ago to see what 
public opinion looked like with regard to currency boards or 
dollarization. Number one, 50 percent of the public is sick and 
tired of the Central Bank in Venezuela and they don't trust it. 
And if you look further into the detail of the surveys that 
were done, the majority of the population supports 
dollarization, 62 percent support dollarization and 59 percent 
support currency boards.
    So, with that, thank you for letting me go a minute and 23 
seconds over my time, Mr. Chairman, but that is it for now. 
Thank you.
    [The prepared statement of Mr. Hanke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I thank the gentleman.
    Mr. Dallen, you are recognized.

 STATEMENT OF MR. RUSSELL M. DALLEN, JR., PRESIDENT AND EDITOR-
            IN-CHIEF, LATIN AMERICAN HERALD TRIBUNE

    Mr. Dallen. Thank you, Chairman Duncan, Ranking Member 
Sires, and my local Florida Congresswoman, Ileana Ros-Lehtinen, 
for inviting my testimony before you today. It is an honor.
    Let me begin on a personal note. I spend my days and nights 
working with Latin America, by day working on sustainable 
private sector financing for countries and companies across 
Latin America at an investment bank, and by night overseeing 
some of the best reporters and journalists around the 
hemisphere at a newspaper. Both are based in Caracas, 
Venezuela.
    I began working with Latin America at the United Nations 
Association of the USA under Assistant Secretary of State Toby 
Gati and the United Nations Ambassador William vanden Heuvel 
after special graduate study under National Security Council 
Adviser Zbigniew Brzezinski and international lawyer Louis 
Henkin at Columbia University and Sir Ian Brownlie at Oxford, 
including a stint at the Senate Foreign Relations Committee, 
where I was a Rosenthal Fellow.
    In 2000, I moved to Venezuela to run the Latin American 
operations of U.S. investment bank Oppenheimer, and 3 years 
later bought a newspaper company there, The Daily Journal, a 
newspaper founded in 1945, which also owned other important 
newspapers in Venezuela, including Diario de Caracas and Tal 
Cual.
    In those roles, I have had the satisfaction of helping to 
finance development not just in Venezuela, but all across Latin 
America, as well as overseeing and training a host of some of 
the region's best journalists. Those positions have also given 
me a well-placed midfield seat in the battle for Latin 
America's heart and soul, a conflict, I am sad to report, that 
the forces of freedom and democracy have been losing badly in 
Venezuela.
    My friends and esteemed colleagues Professor Schamis, 
Professor Hanke, and Dr. McCarthy will testify to the 
disastrous results of the Chavez and Maduro administrations on 
Venezuela. I have been asked by the committee to focus on 
threats to national security, to the U.S. national security 
resulting from Venezuela's communist dictatorship, and the 
country's economic destruction, as well as what the U.S. can 
and should do to assist.
    At the top of that list--it seems to be Russia week or 
Russia month lately in Washington--in late December, my teams 
at Caracas Capital and at the Latin American Herald Tribune 
uncovered that Russia's state-owned oil company Rosneft had 
secured a lien on 49.1 percent of CITGO in the United States 
from Venezuela's state-owned oil company Petroleos de 
Venezuela, PDVSA by its Spanish letters, potentially making the 
Russian Government-controlled Rosneft the owner of America's 
sixth-largest refinery and a vast pipeline network.
    That reality is made worse by the fact that Rosneft is 
under OFAC sanctions from the United States, as well as being 
headed by a longtime Putin deputy, Igor Sechin, who is also a 
named sanctioned individual.
    We made the discovery of Rosneft's UCC lien filing because 
we were diligently searching for explanations for how PDVSA, 
which by the end of November was 2 weeks into technical default 
on some of its $35 billion in bonds, was able to come up with 
the funds to pay the remaining $440 million of the $4.2 billion 
in bond payments it owed in October/November and suddenly cause 
the Central Bank reserves to rise $890 million as well. The 
threads we pulled uncovered that Russia had loaned the 
Venezuelans $1.5 billion.
    While much of our attention here in the United States has 
been focused on other issues, Russia's Rosneft has been active 
in Venezuela as well as all over the world. In the last year, 
they have acquired Indian assets, Egyptian assets, and this may 
come as a surprise to Americans who have lost much blood and 
treasure to liberate that country, but Rosneft is also drilling 
in Iraq--where, by the way, they are partnered with China. And 
this year, because of some additional purchases, but mainly 
because of the sale of Venezuela's 50 percent of the Ruhr Oil 
Refineries in Germany to Rosneft for $1.6 billion in 2010, 
Rosneft is now the third-largest refiner in Germany as well.
    My father is a career Air Force noncommissioned officer, 
and he instilled in me a firm belief in the Noah principle; 
that is, that there are no prizes for predicting rain, there 
are only prizes for building arks. With that in mind, as I go 
through each policy I will make recommendations and we can 
discuss them. Obviously, because of time, we will just stick 
with the first one, and that is the CFIUS analysis of CITGO.
    A preliminary search of the database of the Committee on 
Foreign Investment in the United States does not show that the 
purchase of CITGO by Venezuela has ever undergone a CFIUS 
review. Under the Exon-Florio amendment, if the party has never 
availed itself of the voluntary CFIUS notification and review 
process, there are no limitations for the President's authority 
to investigate a past transaction, especially since the 2007 
Foreign Investment and National Security Act includes energy 
security, obviously something very important to the chairman.
    There is more in my written testimony, but because of time 
I will just conclude that allowing Venezuela to fall further 
into the hands of drug kingpins with close relationships with 
Cuba, Iran, Hamas, Hezbollah, Russia, and China, intent on 
doing us harm, while sitting on top of the world's largest oil 
reserves must not be an option. Likewise, allowing Venezuela to 
fall further into anarchy and chaos will only open the door to 
further death and destruction, heightened regional insecurity, 
and Latin American instability. If the United States is unable 
to bring democracy to its own backyard, what chance does it 
have for bringing it to the rest of the world?
    Thank you for your time, efforts, concern, and good 
offices.
    [The prepared statement of Mr. Dallen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you.
    Mr. Schamis.

 STATEMENT OF HECTOR SCHAMIS, PH.D., ADJUNCT PROFESSOR, WALSH 
        SCHOOL OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Mr. Schamis. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. Thank you for this session.
    To say that there is a tragic meltdown in Venezuela is 
perhaps an understatement, and I will try to highlight why the 
political, social, and economic dimensions and the security for 
the hemisphere are involved in this tragic meltdown.
    The constitutional order has broken down in Venezuela. The 
National Assembly is in the hands of the opposition after the 
landslide victory you, Mr. Chairman, highlighted, in December 
2015, but ever since, it has lost all capacity to approve the 
budget, to legislate. It has even lost parliamentary immunity. 
Just this morning, the Supreme Court has ruled an across-the-
board suspension of parliamentary immunity for the members of 
the National Assembly, how Congress is known in Venezuela.
    There are political prisoners with no rights. Torture has 
been reported. Francisco Marquez is someone we just mentioned. 
And the number of prisoners is 115 today. All of these while 
the government was allegedly maintaining a dialogue, discussing 
the liberation of political prisoners, the release of political 
prisoners.
    The sphere of political rights has shrunk to the point of 
extinction. The government has suspended elections 
indefinitely. There are supposed to be this year regional 
elections. They will not happen. And it has canceled the right 
of the Venezuelan people to recall its President, the recall 
referendum. There is no separation of powers nor checks and 
balances. Venezuela is under a dictatorship.
    There is a deep economic and social crisis that has been 
mentioned already. I don't want to go too much into that. The 
monetary base has expanded to 236 percent. Inflation is the 
highest in the world. The population is below the poverty line 
at 82 percent, and 52 percent under extreme poverty.
    All of this has entailed a deep humanitarian crisis. The 
basic basket is worth 15.3 minimum wages, 9.6 million people 
eat two or less meals a day, and there have been reports of 
weight loss and protein consumption decline. What we saw before 
shows people scavenging in garbage cans. There have been 
reports of children dying by ingesting poison Yuca, the tuber 
that is poisonous. People in hospitals have to provide their 
own medicines and everything they need for their treatment 
because there are no drugs, whether that is painkillers, 
antibiotics, let alone drugs for cancer treatment.
    The collapse of the public health system, we have to 
highlight, has been much worsened by the government's 
incompetence and its criminal refusal, I want to add, to accept 
international humanitarian aid. The Maduro government talks 
about foreign invasion. They reject the foreign invasion of the 
Red Cross to assist this humanitarian crisis.
    There is corruption and crime. As the U.S. Department of 
State has reported, the Vice President has been named, 
designated a kingpin narcotics trafficker. The freezing of 
assets of the Vice President amounts to $3 billion. This is not 
the first time this has happened. Previous high officials of 
the government have also been identified and charged with drug 
trafficking. And the nephews of the First Lady have been tried 
and are expecting conviction in New York.
    Inevitably, lawlessness from above breeds lawlessness from 
below. Venezuela experienced 28,000 killings and violent acts 
throughout the country in 2015. Caracas is the most violent 
city on Earth, with a murder rate of 120 per 100,000 
inhabitants.
    In my testimony, in my written testimony, I make a call for 
action. We are in front of a narco-state that entails risks for 
the security of the hemisphere, the U.S. and the neighbors. 
Today, the Colombian Senate discussed this morning the 
existence of 1 million refugees in Colombia alone. Venezuela is 
a large country, 30 million people, bordering Brazil, Colombia, 
Guyana, and with a coast in the Caribbean. Panama has begun to 
deny visas to Venezuelans. And this humanitarian crisis that 
you see normally in situations of war is happening in Venezuela 
as well.
    I entirely support the call for the invocation of the 
Inter-American Democratic Charter. The Senate has passed a 
resolution, the U.S. Senate has passed a resolution, Resolution 
35, making that call as well. You just made that convocation, 
you convoked to that, and Mr. Duncan as well. And we need to 
certainly accomplish more cohesion. We need better collective 
action in the hemisphere. The OAS is the natural place and 
Secretary Almagro is certainly leading the way with that.
    We started last year with Article 20, which calls for an 
assessment of the Venezuelan situation, but Senator General 
Almagro has now invoked Article 21, which calls for a 
suspension of a country which has broken down the 
constitutional arrangement. We need to put words and actions 
together. Countries sitting on the fence must come on this side 
and put enough pressure on the Venezuelan regime to change, to 
call for elections, to release political prisoners, and to have 
a timetable for attending to the grave humanitarian crisis that 
the Venezuelans are suffering.
    Thank you very much.
    [The prepared statement of Mr. Schamis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you, Dr. Schamis.
    Now we will go to Dr. McCarthy.

 STATEMENT OF MICHAEL MCCARTHY, PH.D., RESEARCH FELLOW, CENTER 
   FOR LATIN AMERICAN AND LATINO STUDIES, AMERICAN UNIVERSITY

    Mr. McCarthy. Chairman Duncan, Ranking Member Sires, 
members of the committee, thank you for the invitation to 
testify today.
    Let me begin by commending the committee. This committee 
has long appreciated the importance of the Venezuela situation, 
and it has taken steps to raise awareness about the potential 
negative impacts of the Venezuela crisis on the United States, 
the hemisphere, and global governance.
    It is an honor to join the committee in this ongoing 
process of discussing policy options and considering potential 
solutions. I look forward to your advice and questions.
    Mr. Chairman, Venezuela's downward spiral has left the 
country poised between crisis and collapse. As you know, over 
the last 3 years the economy has fallen into a depression 
marked by severe shortages and hyperinflation; social protests 
frequently erupted into episodes of violent instability; and 
the government dismantled what remained of one of Latin 
America's oldest democracies, yielding an authoritarian regime.
    Maduro and his government are hunkered down. In 2016, the 
government illegally blocked the opposition's constitutional 
push for a recall referendum. Then, after Vatican-facilitated 
international dialogue broke down, the country's humanitarian 
crisis escalated. Among other illegal detentions, the 
government arbitrarily jailed an elected Member of Congress. 
And as the rule of law further collapsed, the number of 
political prisoners rose to well over 100.
    These power grabs amount to a Presidential self-coup. 
Regrettably, 2017 projects as another year of full-blown 
crisis. The population is restive and it is suffering amid an 
emerging humanitarian crisis. Great uncertainty persists about 
whether postponed gubernatorial elections will take place this 
year. And if there are no elections in 2017, then the popular 
response would likely be contentious protests, perhaps 
including street clashes.
    For the hemisphere, the country's current trajectory 
represents a fundamental threat to its economic, social, and 
political stability. And I want to stress that today the 
Venezuela crisis is already a regional one. There are ominous 
signs out there, and there is already a substantial degree of 
regional instability.
    Over the last 3 years, Colombian civil society groups 
estimate that had 1.2 million Venezuelans entered the country. 
The breakdown of the numbers in terms of the type of migration 
is unclear. What we do know is that overall an estimated 
350,000 Venezuelans stayed in Colombia.
    In 2016, Venezuelans submitted the most asylum requests of 
any nationality in three countries: The United States, Brazil, 
and Spain. In Central America, Costa Rica and Panama have 
experienced significantly increased levels of migration from 
Venezuela, while Caribbean countries continue to report high 
numbers of migration.
    In Europe, governments in Italy, Portugal, and Spain are 
casting a watchful eye over events. There are between 800,000 
and 1 million Venezuelans with European Union passports. The 
overwhelming majority of these passport holders are from these 
three countries.
    The Venezuelan Government is responsible for this manmade 
disaster, and it will be up to Venezuelans to address the 
toughest problems, but the international community cannot 
remain idle. The crisis is already regional in its effects, and 
sustainable reconstruction will require determined 
international leadership and well-coordinated assistance 
efforts.
    For the United States, facilitating reconstruction can 
start with formulating a full-fledged policy for democratic 
stability in Venezuela. And I want to talk to you about 
messages, preparations, and actual policy options in the time 
that is remaining.
    The United States can start by sending an important 
message, in private and in public, that any transition must be 
peaceful and constitutional or else it will lack legitimacy. It 
also should send a message by speaking out about the importance 
of protecting legitimate political spaces. The opposition is 
under constant harassment, and it is crucial the United States 
work with regional partners and European allies to protect 
spaces for civil and political mobilization.
    Moving along to actual planning options. To address the 
immediate effects of the crisis, the United States should 
consider options for delivering humanitarian assistance to 
support the health sector. This needs to be done through secure 
multilateral or third-party channels. President Maduro's 
request for technical medical assistance from the United 
Nations is not credible. We need evidence of deeds that clearly 
demonstrate the government's willingness to accept relief via 
nonpoliticized channels of distribution.
    The United States can consider three areas of policy action 
in the following order. First, I think we need to redouble 
efforts to apply the Inter-American Democratic Charter, 
supporting Secretary General Almagro's efforts. And I think it 
is important that we work with regional governments in the 
region to bring along those who thus far are not convinced that 
the application is justified.
    At the same time, we need to make clear the cost of 
nonaction regarding applying the Inter-American Democratic 
Charter. Not pressing to hold Venezuela to account would set a 
very bad precedent. In fact, it would send a dangerous message, 
that those who implement the model of authoritarian government 
may avoid being held accountable for their actions.
    I think that the Trump administration should strongly 
consider policy continuity with regard to the Caribbean Energy 
Security Initiative previously led by Vice President Biden. I 
think that effort is crucial to addressing the structural 
problem of dependence on subsidized Venezuelan oil.
    Now, moving along to the issue of sanctions. I think it is 
important to recognize that to maximize targeted impact, 
sanctions need to be seen as a tool, as part of a policy. Their 
effectiveness ultimately depends on the ability to advance a 
policy.
    In this respect, two questions need to be asked in the 
context of considering action: Does the measure achieve high 
targeted impact at a low multilateral cost? And do they raise 
the costs of the status quo for the government without 
disproportionately raising exit costs for government leaders.
    And I will conclude with one policy option that is new in 
terms of the policy toolbox out there. In 2016, the Global 
Magnitsky law came into being as a result of the Defense 
Authorization Act. My understanding is that it still needs 
implementing regulations, but the statutory language seems to 
be pretty clear based on its prototype. And the innovation with 
regards to this piece of legislation is that it would allow the 
United States Government to sanction human rights abusers 
without also invoking the International Emergency Economic 
Powers Act, and that is the act that requires the United States 
Government to declare the situation in a country an unusual and 
extraordinary national security threat to the United States.
    So summing up, if utilized, the Global Magnitsky Act might 
create greater clarity about the intention of U.S. sanctions.
    Thank you very much.
    [The prepared statement of Mr. McCarthy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. Thank you.
    Votes will be called at 3, so we are going to try to get 
through as many questions as members can.
    Dr. Hanke, we know that there is a glut of oil that has 
kept prices down. If there is an increase in the price of a 
barrel of oil, how will that help Venezuela in the short term?
    Mr. Hanke. Well, in the short term PDVSA, the state-owned 
oil company, might actually move from a negative cash flow--
they are spending more money than they are actually taking in 
right now. So they are running a negative cash flow. And they 
are exploiting their proven reserves at a very slow rate, and 
the rate is so slow, actually, that the reserves are actually 
worthless. And the reason they are doing that is that they 
haven't been able to maintain their production capacity or 
expand it.
    So if the price goes up--I think my models show that the 
oil prices will probably reach $70 a barrel by the end of the 
year, which is quite a bit above where we are now, we are a 
little bit below $50--that would be helpful, but it is just 
going to be a little bit of a Band-Aid on PDVSA, to directly 
answer your question. It will help them. The bleeding will slow 
down, but they will keep bleeding.
    This is the worst run state-owned oil company in the world. 
I have looked at all of these things, and it ranks at the 
bottom. It takes, to get the median reserve exploited and 
brought to the ground, almost 200 years in Venezuela. Exxon, it 
takes 6.8 years.
    So all these oil companies, the name of the game is, if you 
have resources, you have got to get them above ground and sell 
them. Otherwise, they are not worth very much if you just keep 
them under cover forever and you discount those reserves that 
you have in the cupboard at, like, 10 percent rate of interest. 
For Exxon, the present value of the reserves, the average is 46 
percent of the price of the wellhead price of oil right now. 
For Venezuela, PDVSA, it is zero. Zero.
    Mr. Duncan. The way I look at it, he has got a hungry 
nation to feed, $10 billion in debt or whatnot, and creditors 
are going to want some of that money if the oil prices do jump 
up. So I am assuming that China and Russia will want some of 
that.
    Let me shift gears real quick and just ask Mr. Dallen about 
Russia. Talking about the debt and the amount of money owed to 
Rosneft, in the event of a default, which looks all but 
definite at this juncture, Rosneft and, by operation of the 
transitive property Russia, would own a majority share of a 
U.S. corporation. I think you have touched on that in your 
comments on that as well. Do you think that Rosneft's 
investment in CITGO and PDVSA is a calculated part of Moscow's 
strategy to gain power in the region?
    Mr. Dallen. Thank you, Chairman Duncan. And the short 
answer is yes. Mr. Putin and Mr. Sechin both wrote their 
graduate theses on using oil as a geopolitical tool. And some 
of the decisions that Rosneft has made have not been 
economically rewarding, but they have given them access and 
control of important markets all over the world, including our 
allies in Germany, making them the third-largest refiner now in 
Germany.
    We actually don't know how much Russia owns of Rosneft--how 
much Rosneft owns of CITGO. We know that they have this lien, 
but we don't know what triggers it. We don't have access to 
those documents. When they filed the UCC lien, they only had 
two pages of the contract. I have excerpted one of them in my--
part of them in my remarks. We actually don't know what the 
trigger is. It could already be triggered. We have no idea.
    In addition, PDVSA also mortgaged the other half of CITGO 
by collateralizing some debt when they did a renegotiation of 
$2.8 billion swapped into a new bond, because they couldn't pay 
the short-term bond. And so they collateralized that with the 
other 50 percent of CITGO.
    So it is very much possible, and we don't have access to 
this. The courts are trying to get it. But a CFIUS review would 
certainly be helpful. Russia may own a majority of those bonds, 
making them the majority shareholder and owner of CITGO in the 
United States.
    Mr. Duncan. Yeah.
    Just shifting gears to a completely different topic, Mr. 
McCarthy, you mentioned the need for humanitarian aid, 
multinational humanitarian aid. I don't disagree with you 
there, when I see starving people eating out of dumpsters and 
hear the stories that we have heard. But we also hear that a 
lot of that foodstuffs are prioritized. You see the lines of 
people waiting, but then the apparatchik ends up getting first 
choice and the bulk of it.
    So what kind of assurances do we have that any sort of 
multinational humanitarian aid would get to where the real 
problem is, where the rubber meets the road, in a closed Maduro 
government?
    Mr. McCarthy. Thank you, Chairman.
    I agree with you that making progress on delivery of food 
would be extremely complicated. In fact, that is why I 
suggested that it would be perhaps more intelligent to use----
    Mr. Duncan. Let me just ask you this first: Would the 
Maduro government even be open to a multinational humanitarian 
aid effort?
    Mr. McCarthy. The answer to that, I think, is no. But I 
think that there is the possibility of some type of work on a 
technical front with regards to the health sector. And I don't 
want to take Maduro's word seriously, because we need to see 
real deeds that show genuine interest in trying to obtain some 
relief for the country.
    But I think if there is one area where it makes sense to 
try and press for alleviating the crisis, it is in the health 
sector, and that is because there are more opportunities for 
international engagement that would take place with 
multilateral institutions, and they would also take place 
outside channels directly controlled by the military. So in the 
case of food distribution, the Armed Forces control the process 
from the imports to the delivery; whereas, in the health 
sector, the role of the military is not as strong.
    Mr. Duncan. Thank you for that.
    I am going to turn to the ranking member.
    Mr. Sires. Can you please tell me--we have been hearing 
about Venezuela being on the verge of collapse for the last few 
years. What further can go wrong until it collapses? I mean, 
they have no food, they have no health, they have no 
government. What else can happen that it will collapse?
    Mr. Hanke. Let me address that first, if I may. This can go 
on for a long time.
    Mr. Sires. It has been going on for a long time.
    Mr. Hanke. Actually, it has been going on for a long time. 
Even when I was President Caldera's adviser, things were 
deteriorating massively, and that is why he brought me in to 
see if something could be done. It turned out he didn't have 
the political power at the time to make some of the changes 
that would have probably corrected the situation.
    But, at any rate, you have to think of the following. If 
you go to Yugoslavia, for example, Yugoslavia in January 1994 
had an inflation rate in 1 month--this is 1 month--of 313 
million percent. So Venezuela is peanuts compared to what was 
going on in Yugoslavia. It took a Balkan war, bombing in 
Belgrade, et cetera, et cetera, et cetera, to finally get 
Milosevic out in 1999. That is a long time.
    Now, if you want even a worse case, of course, the 
inflation rate in November 2008 in Zimbabwe was going so fast 
that the prices were doubling every 24 hours. And we still have 
Mugabe. Mugabe has been there over 30 years. Nothing happened. 
The place spontaneously----
    Mr. Sires. What has collapsed in Venezuela? That is what I 
am looking for.
    Mr. Hanke. Well, I am telling you that if you think it is 
going to collapse tomorrow, you might have to think a couple of 
more times, because there are plenty of cases where you have 
had----
    Mr. Sires. Look, I don't think--I want to interrupt, 
because we have to go and vote. I mean, over the years--I have 
been here now 10 years. For 10 years, I have been hearing about 
Venezuela. Okay, maybe different grades of how bad it is.
    But I just think this is a typical playbook of communists 
and socialists to lead into a one-man rule. I mean, they get 
people involved in trying to survive the 24 hours a day that 
they have no time to think. And I think this is exactly what is 
happening in Venezuela. And then you have all these other 
external forces basically managing Venezuela and their moves.
    Mr. Hanke. You hit the nail on the head. I completely agree 
with you.
    Mr. Schamis. If I may add, I don't know what the definition 
of collapse would be that we are discussing here, but to me the 
next step and the real collapse is a refugee crisis, which we 
haven't seen yet.
    Mr. Sires. Well, I spoke to the President of Costa Rica the 
other day. He is telling me----
    Mr. Schamis. The President of Costa Rica----
    Mr. Sires [continuing]. He is starting to see a number of 
Venezuelans.
    Mr. Schamis. Exactly, and all countries around Venezuela. A 
refugee crisis in Venezuela, we are talking about a 30 million 
people country, it is not a small island in the Caribbean, 
countries which have had a refugee crisis, a number of them. 
This is a country on the continent and a 30 million people 
country with borders with in turn large countries, Colombia----
    Mr. Sires. I am going to let somebody else. But, Mr. 
McCarthy, can you just be short?
    Mr. McCarthy. Yes, I will be short. I think collapse 
entails civil strife. I think at this point it is relative. By 
most standards, Venezuela has collapsed. At this point, it is 
about preventing open civil strife in the country.
    Mr. Sires. Thank you.
    Mr. Duncan. All right. Just trying to stay in order here. 
Looks like Mr. Rooney.
    Mr. Rooney. Thank you.
    There are a lot of questions I would like to ask. First of 
all, maybe Professor Schamis or Russell.
    Given the fact that all the countries of the region except 
Salvador, Nicaragua, Ecuador, and Bolivia recently denounced 
Venezuela, which was a positive move, and talked about, even 
raised the specter of, as a last resort, kicking them out of 
the OAS. If the OAS is incapable of moving them forward, what 
do you think of odds of that happening are?
    Mr. Schamis. The odds are higher than they were in June, 
the last meeting of the Permanent Council to discuss Venezuela, 
because of a variety of circumstances. First and foremost, 
Venezuela has gotten worse.
    Secondly, there is a new administration in the U.S. that 
has begun to voice concern about Venezuela. It is reported in 
the newspapers that President Trump discusses Venezuela 
whenever he is on the phone with Latin American Presidents, 
which hadn't happened before, we must recognize.
    Lastly, there is a change of cycle in the politics of Latin 
America. Center government, center-right governments you may 
say, have been winning office and are expressing more concern 
with Venezuela, who, in turn, are less dependent on the 
Venezuelan old tricks. With the oil over $130 per barrel, that 
drove Hugo Chavez's foreign policy and later Maduro's foreign 
policy. Oil is not $130 per barrel, and those new governments 
are less dependent. They have less ties, strings attached to 
the Venezuelan regime.
    So the odds are better than they were before, and I am 
hopeful the OAS will increase its capacity for collective 
action regarding Venezuela.
    Mr. Duncan. Got one more?
    Mr. Rooney. We need to get everybody, Chairman, because we 
don't have much time left. I would yield to someone else.
    Mr. Duncan. Mrs. Love.
    Mrs. Love. Thank you. I wish we could spend so much more 
time on Venezuela. But I guess my question would be, and anyone 
who can offer the best opinion that they can in terms of 
correcting human rights abuses and releasing political 
prisoners, what kind of pressures from the U.S. do you think 
would be most likely to help?
    I know we are talking about sanctions. We talked about some 
of these other tools. And at this point I believe we are in a 
place where anything that we do is going to affect the people 
that are there. But their needs are so incredibly dire that 
unless there are some major disruptions, nothing is going to be 
changed.
    So I guess I am asking, what are the tools that we have in 
our arsenal in order to change the environment there, first of 
all, to release American prisoners, and second of all, to start 
seeing a little bit of change in the government?
    Mr. McCarthy. Let me try this. Thank you. It is a very 
difficult question, but it is absolutely urgent, I agree.
    The truth is that if you were trying to establish a link 
between implementation of sanctions and then change in 
behavior, thus far there is not a positive link. But that 
doesn't mean that there isn't another effect taking place. So I 
think, unfortunately, I would counsel patience with regards to 
the broader human rights situation in the country. I think that 
it is going to take some time before these problems can be 
fully addressed because, unfortunately, the government sees the 
human rights situation as part of a broader political 
negotiation.
    Mrs. Love. What about the immediate?
    Mr. McCarthy. With regards to Mr. Holt, I think that that 
is a private matter, and that has to be dealt with in terms of 
how the family and the U.S. Government are addressing it.
    Mrs. Love. Okay. So we have tried quite a bit with the 
former administration, and it hasn't been moving. We have an 
American citizen who is there on charges. So I guess what I am 
trying to say is that I cannot accept that the United States 
Government can't do anything. I cannot accept that. In terms of 
if we can't squeeze or try and do everything we can with 
Venezuela, what about the other countries, some of the ones 
that we were talking about, that have not denounced Venezuela 
yet? What about their friends and their allies, like El 
Salvador, Nicaragua, Ecuador, and Bolivia? Is there a way to 
actually do that?
    Mr. McCarthy. I think that there has been quite a bit of 
discussion about what strengthening sanctions would entail, and 
I think the truth is that multilateral sanctions tend to be 
more effective than unilateral ones. And I think in that regard 
the Global Magnitsky Act is one option to think about a way to 
bring other countries on board, to see if there could be a 
statement, not just from the United States but from other Latin 
America countries as well, speaking out about the human rights 
crisis in Venezuela, which has to be dealt with in terms of 
results for this American citizen that has unlawfully been 
jailed.
    Mrs. Love. Okay.
    Do you have an opinion on this, Dr. Schamis?
    Mr. Schamis. Yes. Thank you. Briefly, something else the 
U.S. can do and has happened yesterday or the day before is to 
enlarge the coalition in support of the Inter-American 
Democratic Charter and the possibility of suspension or any 
other form of approach toward Venezuela, which has already been 
going on, and it has been mentioned. And more members will have 
more capacity to put pressure on Venezuela.
    Whether that is going to be suspension or any other 
decision remains to be seen. But the bottom line is produce an 
election, release political prisoners, and attend the 
humanitarian crisis in a reasonable amount of time.
    Mrs. Love. And I would actually say that we need to start 
looking at the U.N., because here we are. They have a seat at 
the table. Yet they do not have elections. They do not have 
freer treatment. They are the worst when it comes to human 
rights violations. Why they have a seat at the table is beyond 
me.
    So thank you.
    Thank you, Mr. Chairman.
    Mr. Duncan. I want to thank Ms. Love for being here, and 
with that kind of passion for the subject, you are welcome back 
to any committee hearing we have any time. So thank you.
    I want to thank the panelists. I apologize, with 4 minutes 
and 40 seconds left on the clock over at the Capitol, we are 
going to have to go vote. And with about an hour worth of 
votes, I am not going to ask you to sit here that long and wait 
for questions.
    Members may have additional questions for you, and if they 
do, we will submit those and ask you to submit answers in 
writing.
    Pursuant to committee rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 5 business days to 
allow those statements, questions, extraneous materials for the 
record, subject to length limitations in the rules.
    There being no further business, again I do apologize, but 
let me reiterate, this is not the last hearing we are going to 
have on this subject. Venezuela is important to the United 
States Congress, and it is important to the chairman of the 
Western Hemisphere Subcommittee. We want to do what we can to 
keep awareness raised for the Nation and the world to the 
plight of the people in Venezuela.
    And with that, we will stand adjourned.
    [Whereupon, at 3:12 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
